            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
           STATE OF MAINE
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2003

    November 2004   A-77-05-00002




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM
Date:   November 17, 2004                                                  Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the State of Maine for the Fiscal Year
        Ended June 30, 2003 (A-77-05-00002)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Maine for the Fiscal Year ended June 30, 2003. Our objective was
        to report internal control weaknesses, noncompliance issues, and unallowable costs
        identified in the single audit to SSA for resolution action.

        The Maine State Auditor performed the audit. Results of the desk review conducted by
        the Department of Health and Human Services (HHS) have not been received. We will
        notify you when the results are received if HHS determines the audit did not meet
        Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by the Maine State Auditor and the
        reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Maine Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Department of Human Services
        (DHS) is the Maine DDS’ parent agency.
Page 2 – Candace Skurnik


The single audit reported that SSA was charged a disproportionate share of indirect
costs associated with the State’s accounting system. This occurred because DHS
allocated costs to its various bureaus, including the Maine DDS, using a provisional
indirect cost rate1 that was based on the number of checks written to vendors. Since a
significantly greater number of vendor checks were written for SSA program
expenditures, SSA received an inequitable distribution of costs totaling $633,282.

The provisional indirect cost rate was effective retroactively to fiscal years beginning
July 2001 and is effective until amended. Accordingly, SSA may have also received an
inequitable distribution of indirect costs from July 2001 through June 2002 and July
2003 to date.

The corrective action plan stated that the cognizant Federal agency, HHS, approved the
provisional indirect rate. However, it did not identify actions DHS planned to resolve the
finding (Attachment A, pages 1 and 2).

We recommend that SSA:

1. Instruct the DDS to refund the unallowable indirect costs of $633,282.

2. Work with DHS and HHS to ensure that indirect costs charged to its programs are
   based on an equitable allocation methodology.

3. Determine if it received an inequitable distribution of indirect costs from July 2001
   through June 2002, and July 2003 to the current date, and collect any unallowable
   costs from the DDS.

The single audit also disclosed the following findings that may impact DDS operations,
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   DHS did not have the necessary procedures or systems in place to properly account
    for Federal funds (Attachment B, pages 1 through 3).

•   Vouchers did not have adequate supporting documentation (Attachment B, page 4).

•   The Department of Administrative and Financial Services had excess reserves
    reported in the cost allocation plan that was submitted to HHS (Attachment B,
    page 5 and 6).



1
 Office of Management and Budget Circular A-87, “Cost Principles for State, Local, and Indian Tribal
Governments,“ defines a Provisional rate as a temporary indirect cost rate applicable to a specified
period, which is used for funding, interim reimbursement, and reporting indirect costs on Federal awards
pending the establishment of a "final" rate for that period.
Page 3 – Candace Skurnik


•   Controls were inadequate to prevent or detect errors on Federal reports
    (Attachment B, pages 7 and 8).

•   Quarterly financial reports were inaccurate, were not reconciled to the State’s
    accounting system, and procedures were not in place to ensure that program
    expenditures were accurately reported (Attachment B, pages 9 through 12).

•   DHS did not comply with the Cash Management Improvement Act or have proper
    cash controls (Attachment B, pages 13 through 16).

•   Cash management procedures were inadequate to disburse Federal funds
    (Attachment B, pages 17 and 18).

•   Procedures were not in place to ensure that contractors receiving awards of
    $100,000 or more were not suspended or debarred (Attachment B, page 19).

•   DHS temporarily charged the Federal Program for the State’s share of program
    expenses (Attachment B, page 20).

•   Internal controls were not in place to ensure Automated Data Processing risk
    analysis and systems security reviews are conducted (Attachment B,
    pages 21 and 22).

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Rustigian. If you have questions contact Shannon Agee at (816) 936-5590.




                                          S
                                          Steven L. Schaeffer

Attachments
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
Attachment B
 Page 1 of 22
Attachment B
 Page 2 of 22
Attachment B
 Page 3 of 22
Attachment B
 Page 4 of 22
Attachment B
 Page 5 of 22
Attachment B
 Page 6 of 22
Attachment B
 Page 7 of 22
Attachment B
 Page 8 of 22
Attachment B
 Page 9 of 22
Attachment B
Page 10 of 22
Attachment B
Page 11 of 22
Attachment B
Page 12 of 22
Attachment B
Page 13 of 22
Attachment B
Page 14 of 22
Attachment B
Page 15 of 22
Attachment B
Page 16 of 22
Attachment B
Page 17 of 22
Attachment B
Page 18 of 22
Attachment B
Page 19 of 22
Attachment B
Page 20 of 22
Attachment B
Page 21 of 22
Attachment B
Page 22 of 22
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
